U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




    National Telecommunications and
          Information Administration



              Pennsylvania Public Safety
          Interoperable Communications
      Grant Award No. 2007-GS-H7-0028

                   Final Audit Report No. DEN-19429
                                          March 2010




                    Denver Regional Office of Audits
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




March 17,2010


MEMORANDUM FOR:                Lawrence E. Strickling
                               Assistant Secretary for
                                Communications and Information
                               National Telecommunications and
                                Information Administration



FROM:                            r. Brett M, Baker
                                Assistant Inspector General for Audit


SUBJECT:	                      Final Audit Report No. DEN-I 9429
                               Auditee: Pennsylvania Emergency
                               Management Agency
                               PSIC Award No. 2007-GS-H7-0028


Attached is a copy of our final audit report of the Pennsylvania Public Safety Interoperable
Communications (PSIC) award, Since there are no recommendations in the audit report, no
further action is needed and an agency Audit Resolution Proposal is not required. A copy of the
report will be posted on OIG's Web site pursuant to section 8L of the Inspector General Act of
1978, as amended.

If you have any questions regarding this report, please call John S. Bunting, our Denver regional
inspector general for audits, at (303) 312-7650 and reference the final audit report number above
in any related correspondence.


Attachment


cc:	   Milton Brown, NTIA audit liaison
       Kathy Smith, NTIA chief counsel
       Laura Pettus, PSIC program manager
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230




March 17,2010


Mr. Jeffrey A. Thomas
Deputy Director for Administration
Pennsylvania Emergency Management Agency
2605 Interstate Drive
Harrisburg, PA 17110

Dear Mr. Thomas:

Enclosed is a copy of final audit report number DEN-19429 prepared by our Denver Regional
Office. The report concerns the Public Safety Interoperable Communications (PSIC) grant
awarded to your agency (award number 2007-GS-H7-0028) by the National
Telecommunications and Information Administration (NTIA).

Your response to the draft audit report has been incorporated into the final report. Since there are
no recommendations in the final report, no further action is needed.

We appreciate the cooperation and courtesies extended by you and your staff during the audit.
The report, along with your response, will be posted on OIG's Web site pursuant to section 8L of
the Inspector General Act of 1978, as anlended.




Dr. Brett M. Baker
Assistant Inspector General for Audit

Enclosures

cc: Laura M. Pettus, NTIA PSIC program manager
    Carolyn P. Dunn, DHS/FEMA Grant Programs Directorate
   Rita Kipp, PEMA, deputy director of finance
   Charles Brennan, OA/OPRS, Deputy Secretary OA for Public Safety Radio
   Steven Kuller, OA/OPRS, Director of Administration and Planning
   Greg Steckel, OAlOPRS, PSIC project manager
   Jack Wagner, Auditor General
   Mary Soderberg, Secretary of the Budget
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230




March 17,2010


Ms. Tracey Trautman
Deputy Assistant Administrator
Grant Programs Directorate
FEMA
500 C Street, SW
Washington, DC 20472-3615

Dear Ms.Trautman:

Enclosed is our final audit report (DEN-I 9429) regarding Public Safety Interoperable
Communications grant award number 2007-GS-H7-0028, which was awarded by the National
Telecommunications and Information Administration to the Pennsylvania Emergency
Management Agency.

A copy of the report will be posted on OIG's Web site pursuant to section 8L of the Inspector
General Act of 1978, as amended.

If you have any questions regarding this report, please call John S. Bunting, our Denver regional
inspector general for audits, at (303) 312-7650 and reference the final audit report number above
in any related correspondence.




Dr. Brett M. Baker
Assistant Inspector General for Audit

Enclosure

cc: Richard	 L. Skinner, DI-IS inspector general
    Carolyn Dunn, Dl-IS/FEMA Grant Programs Directorate
    Bradley A. Shefka, Dl-IS audit liaison
    Penny McCormack, FEMA audit liaison
    Gina Norton, FEMA audit liaison
    Mildred Lloyd, DHS/FEMA Grant Programs Directorate audit liaison
    Mike Siviy, DHS OIG Grants Management
                                     Report In Brief
                                                    U.S. Department of Commerce Ofﬁce of Inspector General
                                                                            March 2010



Why We Did this Review                     National Telecommunications and Information Administration
On September 30, 2007, the National
Telecommunications and Information
Administration (NTIA) awarded a
                                           Pennsylvania Public Safety Interoperable Communica-
$34,190,555 Public Safety Interoper-       tions Grant PSIC Award No. 2007-GS-H7-0028 (DEN-19429)
able Communications (PSIC) grant to
the Commonwealth of Pennsylvania
to enhance interoperable emergency         What We Found
communications. NTIA required a
minimum 20 percent matching share          Our audit covered the award period of October 1, 2007, through December 31, 2008, during
from nonfederal sources for the            which time PEMA claimed total costs of $346,850. In general, we found PEMA to be in compliance with
acquisition and deployment of com-         requirements and on track to complete the project on time.
munications equipment, and manage-
ment and administration costs.             Speciﬁcally, PEMA has

The original award period ran from         • 	 prepared an investment justiﬁcation describing how PSIC grant funds would be used to improve in-
October 1, 2007, to September                  teroperable communications and ensure interoperability with other public safety agencies. It anticipates
30, 2010. In November 2009, the                completing all 10 of its investments on schedule by the September 30, 2011, program deadline;
President signed an act extending
the award period to September 30,          • 	 corrected an unallowable portion of its matching share funds, thus meeting the minimum 20 percent
2011, by which time all funds must             nonfederal matching share requirement for acquiring and deploying equipment, and managing and
be expended.                                   administering projects;

The governor of Pennsylvania desig- • 	 complied with grant terms and conditions by fulﬁlling ﬁnancial reporting requirements, meeting the
nated the Pennsylvania Emergency        cash drawdown requirement of drawing down funds 30 days prior to expenditure or a disbursement, and
Management Agency (PEMA) as             complying with the 80 percent pass-through requirement by passing through $27.9 million (about 81
Pennsylvania’s state administrative     percent) of $34.2 million to PSIC fund recipients;
agency to apply for and adminis-
ter PSIC funds. We audited costs    • 	 begun to claim matching share costs in accordance with grant terms and conditions and PSIC’s reporting
claimed by PEMA to determine            requirements; and
whether the recipient complied with
NTIA PSIC grant guidelines and the • 	 claimed costs of $346,850 on the December 31, 2008, ﬁnancial status report; we determined that
Department of Homeland Security         the costs claimed were reasonable, allowable, and allocable according to PSIC grant regulations.
(DHS) award terms and conditions.

Background                                 What We Recommended
The Digital Television and Public
Safety Act of 2005 authorized NTIA, We made no formal recommendations in our report, but did suggest ways to enhance internal controls:
in consultation with the DHS, to
implement the PSIC program—a        • 	 During our ﬁeldwork, we pointed out unallowable matching share funds, which PEMA corrected; this
$1 billion one-time, formula-based      change will put $3,310,338 of funds to better use.
matching grant program intended
to enable public safety agencies to
                                    • 	 As of December 31, 2008, PEMA expended $102,228 of federal funds for management and administra-
establish interoperable emergency       tion that required a matching share contribution. However, PEMA did not claim any matching share,
communications systems using real-      although they had incurred sufﬁcient matching share costs. As a result of our exit conference, PEMA is
located radio spectrum.                 now reporting matching share costs in accordance with grant terms and conditions and reporting require-
                                        ments.
The Implementing Recommendations
of the 9/11 Commission Act of 2007
                                           Also, as part of our audit we reviewed the results of Pennsylvania’s Ofﬁce of Management and Budget
requires the Commerce Inspector            Circular No. A-133 audit report for the year ended June 30, 2007. Although PSIC was not part of the audit,
General to conduct ﬁnancial audits,        we reviewed the report for issues that could have a direct and material effect on the program. We found
over 4 years, of a representative          that PEMA did not have formal procedures in place to ensure the equipment being requested is included on
sample of at least 25 states or territo-   the federal government’s authorized list of allowable equipment. Further, PEMA did not have the required
ries receiving PSIC grants. The Penn-      properly signed receiving report on ﬁle to support the receipt of the equipment by the designated location.
sylvania grant program is among our        Also, PEMA charged expenditures to the accounting system after the grant period ended. PEMA did not
ﬁrst audits under this requirement.        have adequate procedures in place to ensure that expenditures were liquidated within the required 90-day
                                           time period after the grant ending date.
U.S. Department of Commerce                                                                              Final Report (DEN)-19429

Office of Inspector General                                                                                            March 2010



                                                                 Contents


Introduction......................................................................................................................................1

Findings and Recommendations ......................................................................................................3

   I.     Investment Justification's Individual Investments Are on Schedule ................................... 3

   II.        PEMA Corrected Its Unallowable Matching Share ......................................................... 6

   III.       PEMA Had Not Claimed Matching Share Costs ............................................................. 7

   IV.        PEMA Has Complied with Grant Terms and Conditions ................................................ 7

         A.    PEMA Complied with Financial Status Reporting Requirement ....................................7

         B.    PEMA Complied with Cash Drawdown Requirement ....................................................7

         C.    PEMA Complied with 80 Percent Pass-Through Requirement.......................................8

   V.         Reasonable and Allowable Costs Were Claimed ............................................................. 9

   VI.        Follow-Up Was Conducted on Prior Audit Recommendations ....................................... 9

Summary Results of Financial Audit .............................................................................................10

Summary of Agency Response and OIG Comments .....................................................................11

Appendix A: Objectives, Scope, and Methodology.......................................................................12

Appendix B: Summary of Source and Application of Funds ........................................................14

Appendix C: Summary of Financial/Compliance Audit ................................................................15

Appendix D: Recipient Response ..................................................................................................16

U.S. Department of Commerce                                                              Final Report (DEN)-19429 

Office of Inspector General                                                                            March 2010 



                                                 Introduction


On September 30, 2007, the National                          Public Safety Interoperable Communications
Telecommunications and Information                                             Program
Administration (NTIA) awarded a
$34,190,555 Public Safety Interoperable                     The Digital Television Transition and Public
Communications (PSIC) grant to the                          Safety Act of 2005 authorized NTIA, in
Commonwealth of Pennsylvania to enhance                     consultation with the Department of Homeland
interoperable emergency communications.                     Security (DHS), to implement the PSIC
The amount of the award subject to match is                 program—a $1 billion one-time, formula-based
$32,764,195. NTIA required a minimum                        matching grant program intended to enable
20 percent matching share ($8,191,049) from                 public safety agencies to establish interoperable
                                                            emergency communications systems using
nonfederal sources for acquisition and
                                                            reallocated radio spectrum.
deployment of communications equipment,
and management and administrative costs.                    NTIA signed a memorandum of understanding
Statewide planning, coordination, and training              with the Department of Homeland Security,
costs do not require matching share.                        under which DHS oversees and administers the
                                                            PSIC program.
The original award period runs from October
1, 2007, to September 30, 2010. On                          The Implementing Recommendations of the 9/11
November 6, 2009, the President signed                      Commission Act of 2007 requires the Commerce
Public Law 111-96, which extended the                       Inspector General to conduct financial audits,
allowable completion periods for all PSIC                   over 4 years, of a representative sample of at
                                                            least 25 states or territories receiving PSIC
grants for one year, but not later than
                                                            grants. The Pennsylvania grant program is
September 30, 2011, except as determined by                 among the first audits under this requirement.
NTIA.

The governor of Pennsylvania designated the Pennsylvania Emergency Management Agency
(PEMA) as Pennsylvania's state administrative agency to apply for and administer PSIC funds.1
PEMA delegated authority for the administration of the PSIC grant program to the Governor’s
Office of Administration pursuant to a memorandum of understanding.

In November 2008, we initiated an audit of costs claimed by PEMA to determine whether it had
complied with NTIA PSIC grant guidelines and DHS award terms and conditions. The audit
covered the award period of October 1, 2007, through December 31, 2008, during which time the
recipient claimed total costs of $346,850.

The objective of our audit was to determine whether PEMA was using its grant funds in
accordance with federal requirements. In particular, we assessed whether PEMA (1) was on track
to complete its interoperable communications investments by September 30, 2010 (the original

1
  The PSIC program requires the governor of each state and territory to designate a state administrative agency to
apply and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of the
total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless the
local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf. Grantees
must meet a 20 percent nonfederal match for acquisition and deployment.

                                                     1                                                     

U.S. Department of Commerce                                               Final Report (DEN)-19429 

Office of Inspector General                                                             March 2010 



deadline before P.L. 111-96); (2) met the minimum 20 percent match for acquiring and
deploying interoperable communications equipment, and management and administrative costs;
(3) claimed reasonable, allowable, and allocable costs under the award; and (4) complied with
grant terms and conditions. Appendix A outlines the objectives, scope, and methodology we used
in the audit.

PEMA asserts that all 10 investments are on schedule to be completed by September 30, 2011.
(See pages 3 through 6.)

PEMA has sufficient minimum budgeted matching share of $8,191,049. However, during our
fieldwork we found that PEMA planned to claim in-kind rent of $3,310,338 as match, which was
unallowable. PEMA changed this match to an allowable method. In addition, we counseled
PEMA that only a portion of its planned local-cash match could be claimed. (See pages 6
through 8.)

PEMA claimed costs of $346,850 on the December 31, 2008, financial status report. We
determined that the costs claimed were reasonable, allowable, and allocable according to PSIC
grant regulations. (See appendix C.)

PEMA generally complied with grant terms and conditions. PEMA complied with requirements
for financial status reporting, cash drawdowns, and 80 percent pass-through to local applicants.
(See pages 8 through 10.)




                                            2                                             

U.S. Department of Commerce                                                     Final Report (DEN)-19429 

Office of Inspector General                                                                   March 2010 



                                        Findings and Recommendations

I. Investment Justification's Individual Investments Are on Schedule

PEMA prepared an investment justification based on the NTIA PSIC Investment Justification
Reference Guide (dated September 2007) that detailed individual communications projects
intended to (1) achieve meaningful and measurable improvements in interoperability and (2) fill
gaps identified in the statewide communications interoperability plan. The investment
justification had a total of 10 investments (table 1) and was approved on July 25, 2008. PEMA
asserts that all 10 investments are on schedule to be completed by September 30, 2011.

Table 1. Investment Justification and Funding

                                                                              Non-
                                                        PSIC Funds
            PSIC Investment Justification                                    Federal            Total
                                                         Awarded
                                                                             Match
1. North Central Task Force - Mutual Aid
Gateway Systems and Console Interfaces With              $    750,000    $     177,500     $     927,500
PA STARNet
2. Northwest Central Emergency Response
Group - Deployable Interoperable                              750,000          185,000           935,000
Communications Systems
3. Northeast Pennsylvania Emergency Response
Group - PSAP Console Interface with the PA                   2,030,000         481,250          2,511,250
STARNet Statewide radio system
4. Southeast Pennsylvania Regional Task Force
                                                             8,350,994       24,911,552     33,262,546
& City of Philadelphia
5. South Central Task Force - Microwave and
                                                             4,000,000         946,298          4,946,298
Gateway Network
6. Pennsylvania Region 13                                    8,253,718        1,955,161        10,208,879
7. Northeast Pennsylvania Emergency Response
Group - VHF, UHF Gateway Overlay System                      2,648,008        1,606,992         4,255,000
and Microwave Upgrade for Interoperability
8. Commonwealth of Pennsylvania - Tactical
                                                             4,105,713        2,053,988         6,159,701
Video and Data Interoperability System
9. Commonwealth of Pennsylvania - Interface of
the PA STARNet System with all Public Safety                  875,000          215,000          1,090,000
Answering Points, Statewide
10. Southeast Pennsylvania Regional Task Force
- PA STARNet Deployable Tactical                             1,099,006         273,251          1,372,257
Interoperability Systems and Radio Caches
Statewide Plan                                               302,400                           302,400
Management and Administration                              1,025,716     256,429             1,282,145
Total                                                    $34,190,555 $33,062,421           $67,252,976
Source: PEMA investment justification




                                                  3
U.S. Department of Commerce                                                Final Report (DEN)-19429 

Office of Inspector General                                                              March 2010 



The PSIC program requires investment justifications to include plans for establishing a strategic
technology reserve of interoperable communications equipment prepositioned for immediate
deployment during emergencies or disasters. States were permitted to request a waiver for this
requirement if they could demonstrate they already had such a reserve or that other PSIC project
proposals represented a higher priority for public safety communications. PEMA was able to
demonstrate it had strategic technology reserve capability and requested a waiver, which NTIA
approved.

Investment 1: North Central Task Force - Mutual Aid Gateway Systems and Console Interfaces
with PA STARNet

The region will install a network of Tyco Network First gateways equipped with applicable
VHF, UHF, and 800-MHz National Mutual Aid frequencies for interoperability between local
and out-of-region responders. PEMA asserts investment 1 is on schedule to be completed by
September 30, 2011.

Investment 2: Northwest Central Emergency Response Group - Deployable Interoperable
Communications Systems

PEMA will purchase four deployable Mobile Communications                Project 25 (P25) is a set of
Trailers equipped with gateway equipment; VHF, UHF, 700-MHz             national standards for
(future), and 800-MHz radio equipment to support interoperability       manufacturing
across different frequency bands; interface with the PA STARNet         interoperable digital two-
                                                                        way wireless
system; and be capable of narrow-band analog, OpenSky, and P25
                                                                        communications products.
digital operation. PEMA asserts investment 2 is on schedule to be       Radio equipment that meets
completed by September 30, 2011.                                        P25 standards can
                                                                        communicate with any
Investment 3: Northeast Pennsylvania Emergency Response Group           other P25 system,
                                                                        regardless of vendor,
- PSAP Console Interface with the PA STARNet Statewide Radio
                                                                        enabling users of different
System                                                                  systems to talk via direct
                                                                        radio contact.
PEMA will implement and interface the PA STARNet system
directly to the existing ZETRON ACOM dispatch consoles in county Public Safety Answering
Points (PSAPs). PEMA will also implement and stage a fleet of eight vehicle-mounted mobile
gateways throughout the region, equipped with VHF, UHF, Future 700-MHz, and 800-MHz
National Mutual Aid frequencies, to enable on-scene interoperability among responding units
with disparate systems. PEMA asserts investment 3 is on schedule to be completed by September
30, 2011.

Investment 4: Southeast Pennsylvania Regional Task Force and City of Philadelphia

PEMA will upgrade the city of Philadelphia’s current 800-MHz Trunked Radio system from
legacy Analog/Digital 800-MHz-only capability to an Internet protocol-based, P25, 700/800-
MHz system that is capable of network-level interoperability. PEMA will also add bidirectional
amplifiers and/or distributed antenna networks to below-grade subway transit stations to allow
multiple disciplines (police, fire, emergency medical services) and jurisdictions (city, Southeast
Pennsylvania Transportation Authority, universities, federal) to communicate during incidents

                                             4                                                

U.S. Department of Commerce                                                 Final Report (DEN)-19429 

Office of Inspector General                                                               March 2010 



that occur in the subway system. Philadelphia will upgrade its existing radio system to a P25-
compatible system. PEMA asserts investment 4 is on schedule to be completed by September 30,
2011.

Investment 5: South Central Task Force - Microwave and Gateway Network

PEMA will build an overlay network of gateway systems, with VHF, UHF, 700-MHz (future),
and 800-MHz National Mutual Aid frequencies installed. The Mutual Aid stations will be
located at 10 tower sites in the region. These sites will be linked by digital microwave in a loop
configuration, which will provide connectivity between the gateways and repeaters; control of
the gateways from all PSAPs and secure highly reliable connectivity between PSAPs. PEMA
asserts investment 5 is on schedule to be completed by September 30, 2011.

Investment 6: Pennsylvania Region 13 (two separate projects)

   1.	 PEMA will develop and implement a UHF, county-wide, P25 standard-based, public
       safety communications system for Allegheny County.

   2.	 Greene, Fayette, and Somerset counties will implement microwave connectivity to enable
       communications between PSAPs for radio and data interoperability, provide redundant
       dispatch and call-taking capability in the event of the loss of one or more PSAPs, and
       create a common network backbone for a merged radio system.

PEMA asserts investment 6 is on schedule to be completed by September 30, 2011.

Investment 7: Northeast Pennsylvania Emergency Response Group - VHF, UHF Overlay
System, and Microwave Upgrade for Interoperability

PEMA will provide a gateway overlay system and a microwave upgrade for local jurisdictions
operating on disparate VHF and UHF frequencies and state agencies operating on the PA
STARNet statewide OpenSky system. This will increase efficiency and add capacity to the
system. PEMA asserts investment 7 is on schedule to be completed by September 30, 2011.

Investment 8: Commonwealth of Pennsylvania - Tactical Video and Data Interoperability
System (two separate projects)

   1.	 The Commonwealth of Pennsylvania will provide statewide UHF and VHF overlay
       systems to connect to the 800-MHz system.

   2.	 The Commonwealth will provide deployable air-to-ground video and data systems to
       provide scene-of-incident video and data to incident commanders and ground tactical
       units.

PEMA asserts investment 8 is on schedule to be completed by September 30, 2011.




                                             5                                              

U.S. Department of Commerce                                               Final Report (DEN)-19429 

Office of Inspector General                                                             March 2010 



Investment 9: Commonwealth of Pennsylvania - Interface of the PA STARNet System with All
Public Safety Answering Points Statewide

PEMA will enhance 911 centers by connecting them to an 800-MHz system and interface
standalone PA STARNet control stations with the dispatch consoles in each PSAP. PEMA
asserts investment 9 is on schedule to be completed by September 30, 2011.

Investment 10: Southeast Pennsylvania Regional Task Force - PA STARNet Deployable
Tactical Interoperability Systems and Radio Caches

PEMA will buy deployable equipment, such as radios, mobile radios, and vehicle tactical
repeater systems, to provide a common interoperability platform at the scene of a major incident
or event and provide direct in-field access to the PA STARNet system. PEMA asserts investment
10 is on schedule to be completed by September 30, 2011.

II. PEMA Corrected Its Unallowable Matching Share

PEMA is required to have 20 percent matching share in place from nonfederal sources for the
acquisition, deployment, and management and administration of interoperable communications
equipment. The match is required by the Digital Television Transition and Public Safety Act of
2005; Public Law 109-171, Section 3006; the PSIC Grant Program Guidance and Application
Kit; and special award conditions.

Based on these requirements, PEMA must have a minimum matching share of $8,191,049 in
place. PEMA’s minimum required share consists of local-cash match of $2,087,749,
commonwealth cash match of $2,792,962, and commonwealth in-kind match of $3,310,338.

PEMA’s approved investment justification budgeted matching share of $33,062,421. This was
categorized into three types: local-cash match of $24,911,552; commonwealth cash match of
$2,792,962; and commonwealth in-kind match of $5,357,907. PEMA’s local match was to be
provided over a 10-year period, but we counseled PEMA that it can claim only that portion of the
$24,911,552 local-cash match ($2,087,749) that will be expended before September 30, 2010
(now September 30, 2011).

We also questioned the budgeted portion of commonwealth in-kind match of $3,310,338 that
was originally categorized as in-kind rents. The in-kind rents were to be based on the present
value of foregone rental receipts on radio towers and radio shelters owned by the Commonwealth
of Pennsylvania. Although 15 CFR § 24.24 (d)(2) allows space donated by a third party to be
considered as a matching share contribution, valued at the fair value rental rate of the space, in
this case there is no third party donating the space. The Commonwealth of Pennsylvania—the
recipient of the PSIC grant—constructs, owns, maintains, and manages the radio towers. As a
grant recipient, allowable costs are limited to those actually incurred as expenses in the
accounting records. Since foregone rental revenue on space the commonwealth may have leased
to an outside entity is not an actual incurred expense, it may not be claimed as a matching share.

PEMA agreed with our findings, and in lieu of in-kind rent PEMA proposed a use allowance of
the capital acquisition costs for structures and buildings, and equipment for 57 sites used for

                                            6                                             

U.S. Department of Commerce                                                 Final Report (DEN)-19429 

Office of Inspector General                                                               March 2010 



investments 7 and 8. The structures and buildings cost $22 million, and the equipment cost
$15 million.

Office of Management and Budget (OMB) Circular A-87, Attachment B, Section 11.f., states,
“Where the use allowance method is followed, the use allowance for buildings and
improvements will be computed at an annual rate not exceeding two percent of acquisition costs.
The use allowance for equipment will be computed at an annual rate not exceeding 6.67 percent
of acquisition cost.” Using these percentages and a 3-year benefit period, PEMA calculated a
total use allowance for match purposes of $4.4 million.

We accept PEMA’s use allowance methodology, provided PEMA is consistent in its accounting
treatment. PEMA has confirmed that the $37 million of use allowance costs have not been
charged to any other cost objectives. If some of these costs are charged directly, they all must be
direct charges. None of these costs can be allocated as indirect costs.

PEMA’s change of $3,310,338 of budgeted match from in-kind rents to a use allowance of the
capital acquisition costs for structures and buildings will put $3,310,338 of funds to better use.

III.PEMA Had Not Claimed Matching Share Costs

NTIA’s PSIC Grant Program Guidance and Application Kit, Section VI (B), requires the match
be expended at the same rate as the federal share. As of December 31, 2008, PEMA expended
$102,228 of federal funds for management and administration that required a matching share
contribution. As of December 31, 2008, PEMA did not claim any matching share, although they
had incurred sufficient matching share costs.

As a result of our exit conference, PEMA is now reporting matching share costs in accordance
with grant terms and conditions and reporting requirements. As of September 30, 2009, PEMA
claimed matching share costs beyond the amount required to keep pace with federal outlays.

IV. PEMA Has Complied with Grant Terms and Conditions

A. PEMA Complied with Financial Status Reporting Requirement

We reviewed the financial status reports (Standard Form 269) filed by PEMA for the period of
October 2007 through December 2008. The PSIC Program Guidance and Application Kit states
that these reports must be filed within 30 days of the end of each calendar quarter for every
quarter the award is active, including partial calendar quarters and periods during which no grant
activity occurs. PEMA submitted all of its financial status reports within the 30-day time period.

B. PEMA Complied with Cash Drawdown Requirement

The PSIC Grant Program Guidance and Application Kit allowed states to draw down funds up
to 5 percent of their PSIC allocations prior to receiving their full grant amounts to ensure that
PSIC requirements were addressed in their statewide communications interoperability plan. On
June 3, 2008, PEMA drew down $240,000 for statewide planning funds to update their statewide
communications interoperability plan.

                                              7                                              

U.S. Department of Commerce                                                              Final Report (DEN)-19429 

Office of Inspector General                                                                            March 2010 




The PSIC Grant Program Guidance and Application Kit, Section VI (B), states that grantees
should draw down funds as close to expenditure as possible, up to 30 days prior to
expenditure/reimbursement to avoid accruing interest. Funds received by grantees must be
placed in an interest-bearing account, and if not expended in 30 days, interest earned must be
remitted to the U.S. Treasury. We reviewed PEMA’s PSIC cash drawdowns as of December 31,
2008, which totaled $345,090. We found one drawdown that was 4 days in excess of 30 days
from payment. The imputed interest on the cash drawn down in excess of 30 days was
immaterial. We consider PEMA to be materially in compliance with the cash drawdown
requirement.

C. PEMA Complied with 80 Percent Pass-Through Requirement

PEMA passed through $27.9 million (81 percent) of the $34.2 million in PSIC federal funds to
six task forces,2 exceeding the 80 percent pass-through requirement stated in the PSIC Grant
Program Guidance and Application Kit. States are also required to pass through PSIC funds to
local or tribal applicants within 60 days after approval of an investment justification. PEMA
complied with this requirement as well (see table 2).

Table 2. Pass-Through of PSIC Funds

                                            Funds
                                                                  Total
                           Funds          Retained by                                PSIC
                                                                 Funding
                           Passed          State via                                 Funds     Total Federal
                                                                  Passed
                         Through to      Memorandums                               Retained       Funds
                                                                Through to
                           Locals              of                                 by the State
                                                                  Locals
                                         Understanding
Investment 1                                $ 750,000            $     750,000                        $     750,000
Investment 2                                    750,000                750,000                              750,000
Investment 3                                  2,030,000              2,030,000                            2,030,000
Investment 4              $8,350,994                                 8,350,994                            8,350,994
Investment 5                                    4,000,000            4,000,000                            4,000,000
Investment 6                                    8,253,718            8,253,718                            8,253,718
Investment 7                                    2,648,008            2,648,008                            2,648,008
Investment 8                                                                        $4,105,713            4,105,713
Investment 9                                                                           875,000              875,000
Investment 10                                   1,099,006            1,099,006
Statewide                                                                              302,400             302,400
Planning
M&A Costs                                                                            1,025,716          1,025,716
 Total                    $8,350,994         $19,530,732         $27,881,726        $6,308,829        $34,190,555
Percent                           24                  57                  82                18                100
Source: PEMA Documents




2
    Pennsylvania has divided the commonwealth into nine regional task forces, of which six received PSIC funds.

                                                      8
U.S. Department of Commerce                                               Final Report (DEN)-19429 

Office of Inspector General                                                             March 2010 



The six task forces receiving pass-through funds for interoperable communication equipment,
planning, training, program administration, and exercise activities requested in writing for the
commonwealth to procure equipment and provide services on their behalf. The commonwealth
and the six task forces entered into formal memorandums of understanding for the procurement
and services.

PEMA retained $6.3 million in funding to complete commonwealth projects, $5 million for
commonwealth investments, $1 million for management and administration costs, and
$0.3 million for statewide planning.

V.	 Reasonable and Allowable Costs Were Claimed

PEMA claimed costs of $346,850 on the December 31, 2008, financial status report. We
determined that the costs claimed were reasonable, allowable, and allocable according to PSIC
grant regulations (see appendix C).

VI. Follow-Up Was Conducted on Prior Audit Recommendations

As part of our audit, we reviewed the results of Pennsylvania’s OMB Circular No. A-133 audit
report for the year ended June 30, 2007. Although the PSIC program was not part of the audit,
we reviewed the report for issues that could have a direct and material effect on the program, and
identified two items:

   1.	 Federal purchasing requirements. PEMA did not have formal procedures in place to
       review the detailed equipment lists submitted by the subrecipients to ensure the items
       being requested are included on the federal government’s authorized list of allowable
       equipment. Further, PEMA did not have a properly signed receiving report on file to
       support the receipt of the equipment by the designated location within the task force’s
       region as required under the contract with each task force. Through December 31, 2008,
       PEMA had not charged any equipment to the PSIC grant; therefore, we could not test
       PEMA’s compliance with purchasing requirements in regards to the PSIC grant.

   2.	 Federal reimbursement requirements. PEMA charged expenditures to the accounting
       system after the grant period ended. Costs claimed under various PEMA grants were
       unallowable since they were not liquidated within the required time period under federal
       regulations. PEMA did not have adequate procedures in place to ensure that expenditures
       were liquidated within the required 90-day time period after the grant ending date. The
       PSIC grant has not reached the end of the grant period; therefore, we could not test
       PEMA’s compliance.




                                            9                                             

U.S. Department of Commerce                                              Final Report (DEN)-19429 

Office of Inspector General                                                            March 2010 



                              Summary Results of Financial Audit

The results of our interim cost audit for the period October 1, 2007, through December 31, 2008,
which are detailed in appendix C, are summarized as follows:

Federal Funds Disbursed                                    $346,850
Costs Incurred                       $346,850
Less Questioned Costs                       0
Costs Accepted                       $ 346,850
Less Matching Share                          0
Federal Funds Earned                                       $346,850

Refund Due the Government                                  $        0




                                           10                                            

U.S. Department of Commerce                                               Final Report (DEN)-19429 

Office of Inspector General                                                             March 2010 



                   Summary of Agency Response and OIG Comments

PEMA wished to rescind the statement, found on page 3 of our draft audit report, that 6 of its 10
investments are at risk of not being completed by September 30, 2010, the original date for the
end of the performance period of the grant.

Public Law 111-96, signed on November 6, 2009, provides all 56 PSIC grantees a one-year
period of performance extension to complete approved PSIC investments no later than
September 30, 2011. Based on the extension, PEMA asserts that all 10 investments are on
schedule to be completed by September 30, 2011. We followed up on this response to determine
whether PEMA is on track to complete its interoperable communications investments by
September 30, 2011, and we concur with PEMA.

PEMA’s complete response to our draft report is in appendix D. The response provides a percent
complete estimation for each investment as of February 2010.




                                            11                                            

U.S. Department of Commerce                                             Final Report (DEN)-19429 

Office of Inspector General                                                           March 2010 



                    Appendix A: Objectives, Scope, and Methodology

The objective of our audit was to determine whether PEMA was using its grant funds in
accordance with federal requirements. In particular, we assessed whether PEMA (1) is on track
to complete its interoperable communications investments by September 30, 2010 (original
deadline before P.L. 111-96); (2) met the minimum 20 percent match for acquiring and
deploying interoperable communications equipment, and management and administrative costs;
(3) claimed reasonable, allowable, and allocable costs under the award; and (4) complied with
grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through December 31, 2008. We conducted our fieldwork in November 2008 at the PEMA office
in Harrisburg, Pennsylvania, and in Philadelphia and Pittsburgh. We reviewed PEMA’s financial
management of the award and its implementation of award requirements.

To meet our objectives, we did the following:

   •	 reviewed investment documentation and discussed each investment with agency officials
   •	 analyzed source documents related to the minimum 20 percent match for acquiring and
      deploying interoperable communications equipment
   •	 traced costs claimed to source documentation
   •	 interviewed PEMA officials, the governor’s Office of Administration officials, and the
      Pennsylvania state legislative auditor, and reviewed the state's OMB Circular No. A-133
      audit report for the year ending June 30, 2007
   •	 reviewed pertinent laws, regulations, and guidance (listed below) against PEMA's PSIC
      activities and internal controls
We evaluated PEMA’s compliance with federal laws and regulations applicable to the PSIC
grant project and found them to be generally in compliance with the following:

   •	 Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
      Law 109-171
   •	 Call Home Act of 2006, Public Law 109-459
   •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
      53
   •	 Public Safety Interoperable Communications Grants, Public Law 111-96
   •	 PSIC Grant Program Guidance and Application Kit, August 16, 2007
   •	 NTIA PSIC Grant Program Allowable Cost Matrix
   •	 NTIA PSIC Grant Program Frequently Asked Questions
   •	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •	 OMB Circular A-133, Compliance Supplement, CFDA 11.555

                                           12                                           

U.S. Department of Commerce                                              Final Report (DEN)-19429 

Office of Inspector General                                                            March 2010 



   •   Special Award Conditions
   •   Department of Commerce Financial Assistance Standard Terms and Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We obtained an understanding of the management controls of PEMA by interviewing PEMA
officials, examining policies and procedures, reviewing written assertions of PEMA officials,
and examining the state of Pennsylvania’s most recent OMB Circular No. A-133 audit report.
We did not rely on the accounting firm’s internal control reviews but instead determined that we
could better meet our audit objectives through testing of PSIC transactions.

We verified the validity and reliability of computer-processed data supplied by PEMA by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data was reliable for use in meeting our objectives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under authority of Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.




                                           13                                            

U.S. Department of Commerce                                             Final Report (DEN)-19429 

Office of Inspector General                                                           March 2010 



              Appendix B: Summary of Source and Application of Funds

               PENNSYLVANIA EMERGENCY MANAGEMENT AGENCY 

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                          GRANT NO. 2007-GS-H7-0028 

                  OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                      Approved                         Receipts &
                                       Budget                           Expenses
                                        (a)                               (b)

SOURCE OF FUNDS:

Federal                               $34,190,555                      $346,850
Nonfederal                             33,062,421                             0

Total                                 $67,252,976                      $346,850



APPLICATION OF FUNDS:

Investment 1                              $927,500                       $2,205
Investment 2                               935,000                            0
Investment 3                             2,511,250                        1,760
Investment 4                            33,262,546                            0
Investment 5                             4,946,298                            0
Investment 6                            10,208,879                          657
Investment 7                             4,255,000                            0
Investment 8                             6,159,701                            0
Investment 9                             1,090,000                            0
Investment 10                            1,372,257                            0
Statewide Planning                         302,400                      240,000
M&A Costs                                1,282,145                      102,228

Total                                 $67,252,976                      $346,850

Notes:

(a) Approved budgeted costs are for the period of October 1, 2007, through September 30, 2011,
based on Pennsylvania's approved investment justification.

(b) Receipts and expenses are for the period of October 1, 2007, through December 31, 2008.




                                          14                                            

U.S. Department of Commerce                                     Final Report (DEN)-19429 

Office of Inspector General                                                   March 2010 



                 Appendix C: Summary of Financial/Compliance Audit

               PENNSYLVANIA EMERGENCY MANAGEMENT AGENCY 

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                          GRANT NO. 2007-GS-H7-0028 

                  OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                                            Results of Audit
                         Approved          Costs        Costs                Costs
Description               Budget          Claimed     Questioned           Accepted

Investment 1             $927,500           $2,205              $0            $2,205
Investment 2               935,000               0               0                 0
Investment 3             2,511,250           1,760               0             1,760
Investment 4            33,262,546               0               0                 0
Investment 5             4,946,298               0               0                 0
Investment 6            10,208,879             657               0               657
Investment 7             4,255,000               0               0                 0
Investment 8             6,159,701               0               0                 0
Investment 9             1,090,000               0               0                 0
Investment 10            1,372,257               0               0                 0
Statewide Plan             302,400         240,000               0           240,000
M&A Costs                1,282,145        $102,228               0           102,228
Total                  $67,252,976        $346,850              $0          $346,850




Federal Funds Disbursed                              $346,850
Costs Incurred                       $346,850
Less Questioned Costs                       0
Costs Accepted                        346,850
Less Matching Share                         0
Federal Funds Earned                                  346,850

Refund Due the Government                                 $0




                                     15                                         

U.S. Department of Commerce                                    Final Report (DEN)-19429 

Office of Inspector General                                                  March 2010 



                              Appendix D: Recipient Response




                                         16                                    

U.S. Department of Commerce        Final Report (DEN)-19429 

Office of Inspector General                      March 2010 





                              17                   

